Ofﬁce of the Inspector General
                                                                          Semiannual Report to the Congress
                                                          October 1, 2004 through March 31, 2005




 Office of the Inspector General/Semiannual Report to Congress                                          1
U.S.       GOVERNMENT                          PRINTING           OFFICE     I   KEEPING    AMERICA   INFORMED
The U.S. Government Printing Ofﬁce

For well over a century, the mission of the U.S. Government
Printing Ofﬁce (GPO) under the Public Printing and
Documents statutes of Title 44, U.S. Code, has been to
fulﬁll the needs of the Federal Government for information
products and to distribute those products to the public.
The GPO is the Federal Government’s primary centralized
resource for gathering, cataloging, producing, providing,
authenticating, and preserving published U.S. Government
information in all its forms. GPO is responsible for the
production and distribution of information products and
services for all three branches of the Federal Government.
   Under the Federal Depository Library Program, GPO
distributes a broad spectrum of Government publications
in print and online formats to more than 1,250 public,
academic, law, and other libraries across the country. In
addition, GPO provides public access to ofﬁcial Federal       The Ofﬁce of the Inspector General
Government information through public sales and other
programs, and, most prominently, by posting more than         The Ofﬁce of the Inspector General (OIG) was created by
a quarter of a million Government titles online through       the Government Printing Ofﬁce Inspector General Act of
GPO Access (www.gpoaccess.gov).                               1988, Title II of Public Law 100-504 (October 18, 1988).
   Today, many documents no longer require typesetting,       The mission of the GPO OIG is to provide leadership and
printing, or binding and there is no tangible document        coordination, and to recommend policies to prevent and
to make its way to library shelves or to be preserved for     detect fraud, waste, abuse and mismanagement, as well as
the future. This evolution of document creation and           to promote economy, efﬁciency, and effectiveness in GPO’s
dissemination has provided GPO with a signiﬁcant              programs and operations. The OIG offers an independent
challenge to its future relevance and viability. GPO is       and objective means of keeping the Public Printer and the
meeting this challenge by transforming into an entity         Congress fully informed about problems and deﬁciencies
capable of delivering Federal information products            relating to the administration and operations of the
and services from a ﬂexible digital platform. While the       GPO. To meet these responsibilities, the OIG conducts
introduction of digital technology may change the way         audits, evaluations, investigations, inspections, and other
GPO’s products and services will be created and how they      reviews. The OIG is dedicated to acting as an agent of
will look and function, GPO will continue to satisfy the      positive change to help the GPO improve its efﬁciency
Government’s changing information requirements, and           and effectiveness as it undertakes its unprecedented
accomplish its mission of Keeping America Informed.           transformation.
Contents
Message from the Inspector General .................................................................................................... 1

Executive Summary ...........................................................................................................................................................3
   Highlights of the Semiannual Report ...................................................................................................................................3
   Management Initiatives ........................................................................................................................................................3
   Review of Legislation and Regulations ................................................................................................................................5


Ofﬁce of Audits ...................................................................................................................................................................7
   A. Summary of Audit Activity ..........................................................................................................................................7
   B.     Audit Accomplishments – Audit Reports ......................................................................................................................7
   C. Quality Assurance Activity ..........................................................................................................................................10
   D. Advice and Assistance .................................................................................................................................................10
   E.     Status of Open Recommendations .............................................................................................................................10
          Statistical Table – Audit Reports with Questioned and Unsupported Costs ..............................................................12
          Statistical Table – Audit Reports with Recommendations ..........................................................................................13
          Statistical Table – List of Audit Reports Issued During Reporting Period .................................................................13


Ofﬁce Of Investigations .................................................................................................................................................15
   A. Summary of Investigative Activity ..............................................................................................................................15
   B.     Investigative Accomplishments ....................................................................................................................................15
   C. Types of Cases ............................................................................................................................................................15
   D. Status of Action on Referrals ......................................................................................................................................16
   E.     Investigative Case Dispositions ....................................................................................................................................16
   F.     Work-In-Progress .........................................................................................................................................................16
          Statistical Table – Summary of Investigative Case Workload .....................................................................................17
          Statistical Table – Ofﬁce of Investigations Productivity Summary .............................................................................17


Ofﬁce Of Administration And Inspections .............................................................................................................19
   A. Summary of Inspections Activity ................................................................................................................................19
   B.     Inspection Accomplishments .......................................................................................................................................19
   C. Work-In-Progress .........................................................................................................................................................20
   D. Status of Previous Report Recommendations .............................................................................................................22


Organizational Chart ........................................................................................................................... 23




Office of the Inspector General/Semiannual Report to Congress
                               Message from the Inspector General



                                                This report highlights the activities of the GPO Ofﬁce of the
                                                Inspector General (OIG) for the six-month period ending March 31,
                                                2005. This period has been both challenging and productive for the
                                                OIG, resulting in signiﬁcant beneﬁts for both GPO and the American
                                                taxpayers. During the past six months, the OIG issued ﬁve audit and
                                                inspection reports, investigated 85 new administrative/civil/criminal
                                                cases, and otherwise assisted GPO management in myriad different
                                                ways as an agent for positive change.

                                             When I was sworn in as Inspector General in October of 2004,
                                             I stated that my primary goal was to improve the GPO OIG while
                                             ensuring that our focus remained on our core mission, as deﬁned by
                                             the Inspector General Act of 1978. I believe that we have achieved
                               this goal during the past six months and that we will continue to improve and
                               “add value” to GPO’s operations in the months to come.

                               Although I have had the opportunity to serve as the GPO Inspector General
                               for only a very short time, I have been consistently impressed by the hard work
                               and dedication of the outstanding auditors, investigators, and other professionals
                               who make up the OIG team. I want to thank these dedicated men and women
                               who work diligently on a daily basis to accomplish our critical mission. I also
                               want to acknowledge the considerable effort by GPO management during
                               this past reporting period to address and resolve the large number of open
                               recommendations reported by this ofﬁce in previous Semiannual Reports.

                               Finally, looking ahead, I see continuing challenges for the OIG as the GPO
                               continues to make progress toward transforming itself into a state-of-the-art,
                               21st century, processor of digital information. The OIG can and must play a key
                               role in this unprecedented transformation if it is to be successful.




                                                                                    Gregory A. Brower
                                                                                    INSPECTOR GENERAL
                                                                                    U.S. Government Printing Ofﬁce




Office of the Inspector General/Semiannual Report to Congress                                                           1
Executive Summary



Highlights of this Semiannual Report                               The Ofﬁce of Administration and Inspections issued two reports
                                                                concerning the production of blank U.S. passports by GPO.
During this reporting period, the OIG successfully worked       The ﬁrst report addressed serious product integrity concerns
to improve its relationship with GPO management by              associated with the procurement of the Fortuna Systems
enhancing communications between OIG personnel                  passport design services, and the second report examined
and GPO’s management team. This improved working                the GPO passport manufacturing process, identifying
relationship has resulted in signiﬁcant progress toward         opportunities for improved passport product security and
resolving a long list of open audit recommendations.            integrity. In addition, the Ofﬁce of Administration and
The OIG has also continued to work closely with other           Inspections issued two draft reports as part of the ﬁrst phase
Federal Government OIGs on a variety of fronts, including       of a compliance review of the Public Key Infrastructure
committee work with the Executive Council on Integrity          at GPO.
and Efﬁciency (ECIE), peer reviews, and the President’s
Council on Integrity and Efﬁciency (PCIE)/ECIE annual
awards ceremony. The accomplishments of the OIG’s               Management Initiatives
three operating divisions, Audits, Investigations, and
Administration and Inspections, during this reporting           Annual Internal Control Report
period, are summarized below.                                   GPO Instruction 825.18A prescribes the policies and
   The Ofﬁce of Audits issued three audit reports with a        standards and assigns responsibility for conducting
total of 16 recommendations for improvements, including         vulnerability assessments and internal control reviews
efﬁciencies that represent approximately $3.3 million in        of programs and activities of the GPO. Pursuant to this
potential funds put to better use. The Ofﬁce of Audits          directive, GPO’s managers are responsible for continuously
also conducted an internal quality review of a completed        monitoring and improving the effectiveness of management
audit. In March, the ofﬁce gained a new Assistant Inspector     controls associated with their programs, functions, and
General for Audits who will be responsible for all OIG audit    activities through the performance of vulnerability
activity and audit-related liaison with GPO management.         assessments and internal control reviews.
    The Ofﬁce of Investigations opened 30 investigative cases      In a letter to management dated November 18, 2004,
in response to 85 new complaints, and closed six matters.       the OIG provided a summary GPO management’s
A previously reported investigation into allegations            internal control review submissions for the ﬁscal year
of false claims involving approximately $5 million in           ending September 30, 2004. This letter contained six
contracts over the past three years was settled by the U.S.     recommendations to improve the effectiveness of GPO’s
Department of Justice through negotiations with the subject     internal control program.
contractor. The Ofﬁce of Investigations recovered a total
of $310,000 through its investigative efforts during this
period, and helped GPO realize cost savings of $120,000
in the reduction of workers’ compensation leave taken by
GPO employees. The Ofﬁce of Investigations increased
its ranks with the addition of one new junior investigator
upon his completion of basic training at the Federal Law
Enforcement Training Center, Glynco, GA. In addition,
three of eight investigators were promoted based on
meritorious performance.




Office of the Inspector General/Semiannual Report to Congress                                                                  3
From right to left: GPO Inspector General      Executive Council on Integrity and Efﬁciency
Greg Brower with EPA Inspector General         The President’s Council on Integrity and Efﬁciency (PCIE)
Nicki Tinsley, former FDIC Inspector General   and the Executive Council on Integrity and Efﬁciency
Gaston Gianni, and Federal Reserve Board       (ECIE) were established by Executive Order 12805, May
Inspector General Barry Snyder                 11, 1992, to coordinate and enhance governmental efforts
                                               to promote integrity and efﬁciency and to detect and
                                               prevent fraud, waste, and abuse in Federal programs. The
                                               PCIE is primarily comprised of Inspectors General (IGs)
                                               appointed by the President and the ECIE is primarily
                                               comprised of IGs appointed by agency directors. The GPO
                                               OIG is a member of the ECIE.
                                                  On October 27, 2004, the GPO OIG co-hosted the 7th
                                               annual PCIE/ECIE awards ceremony. The ceremony was
                                               held at the Andrew Mellon Auditorium in Washington,
                                               D.C. and was attended by over 650 government employees
                                               and other guests. This ceremony is conducted yearly and
                                               recognizes the outstanding accomplishments of nearly 100
                                               individuals or groups from the Federal Inspectors General
                                               community.




4                                                         Office of the Inspector General/Semiannual Report to Congress
   At the most recent ceremony, four GPO OIG                     Review of Legislation and Regulations
professionals were recognized. David B. Schaub,
Supervisory Auditor, and Allyson S. Brown, Auditor,              The OIG, in fulﬁlling its obligations under the Inspector
each received an Award for Excellence for their work in          General Act of 1978, is responsible for reviewing existing
ﬁnding that the GPO contractor mailings program lacked           and proposed legislation and regulations relating to
standard procedures, automation, and accountability.             programs and operations of the GPO and to make
Jeffery W. McAboy, Special Agent-In-Charge, and Rodney           recommendations in its semiannual reports concerning the
A. Dahl, Supervisory Auditor, also received an Award for         impact of such legislation or regulations on the economy
Excellence for their prompt action to improve the safety and     and efﬁciency in the administration of programs and
security of GPO employees and the public. GPO Inspector          operations administered or ﬁnanced by the GPO.
General Gregory A. Brower provided the ceremony’s                   For the current reporting period, the GPO OIG notes
closing remarks and Deputy Assistant Inspector General           that legislation concerning the planned move of GPO
Kevin P. Kaporch served as master of ceremonies.                 facilities has been proposed; however, the GPO OIG has
                                                                 not yet reviewed the proposal. The OIG will continue to
Management Team Update                                           review this matter with GPO management and will make
On March 20, 2005, Kevin J. Carson joined the OIG as             recommendations as appropriate. While the OIG has
the Assistant Inspector General for Audits. Mr. Carson           agreed in principle that GPO’s current buildings are too
joined the GPO after serving for more than 15 years with         large and antiquated and drain essential resources from
the Ofﬁce of Inspector General at the National Aeronautics       GPO’s evolving mission, the proposal to relocate to a
and Space Administration (NASA). Mr. Carson held a               new facility will require speciﬁc legislative authority, and
variety of senior management positions at NASA including         the OIG will withhold additional comment until draft
Deputy Assistant Inspector General for Audits, Special           legislation may be reviewed.
Assistant to the Assistant Inspector General, and Director of       In addition, the OIG notes that in order for GPO’s
Audit Quality. His last position with the NASA OIG was as        new Security and Intelligent Documents business unit to
Director of Safety and Security Audits. In this position, Mr.    fulﬁll its mission, new legislation may be required to allow
Carson directed a geographically dispersed, diverse team         GPO to provide services to state and local governments.
of auditors, analysts, and technical professionals responsible   Again, the OIG will continue to review this matter with
for conducting reviews of safety and security issues within      GPO management and will make recommendations as
NASA. The team’s work focused primarily on reviewing             appropriate.
NASA’s implementation of the recommendations made by
the Columbia Accident Investigation Board in the aftermath
of the Space Shuttle Columbia accident. Overall, Mr.
Carson has 25 years of auditing experience in the Federal
Government and has also worked for the U.S. Army Audit
Agency and the Department of Transportation OIG. Mr.
Carson is a graduate of Towson State University in Towson,
Maryland with a Bachelor of Science degree in Business
Administration and Accounting.




Office of the Inspector General/Semiannual Report to Congress                                                                   5
Ofﬁce of Audits



A. Summary of Audit Activity                                    Funds that are charged back are removed from GPO’s
The Ofﬁce of Audits (OA), as required by the Inspector          revolving fund. At the end of each month, IPAC provides a
General Act Amendments of 1988, conducts independent            summary report to GPO detailing all chargeback amounts
and objective performance audits, ﬁnancial audits,              that have been removed from GPO’s accounts.
and special reviews relating to GPO. All OIG audits
are performed in accordance with generally accepted             Results In Brief
government auditing standards promulgated by the                The OIG identiﬁed several issues related to chargebacks
Comptroller General of the United States. When requested,       that required GPO management’s attention.
the OA also provides accounting and auditing assistance to
the OIG Ofﬁce of Investigations for both civil and criminal     ■   Total chargeback amounts greatly escalated during Fiscal
investigations. The OA also refers irregularities and other         Year (FY) 2004 – as of July 2004, net chargebacks were
suspicious conduct detected during audits to the Ofﬁce of           over $10 million. One customer agency, the Department
Investigations for investigative consideration.                     of Transportation (DOT), had charged back over $3.5
   During this reporting period, the OA cooperatively               million in FY 2004.
worked with GPO management to make signiﬁcant
progress in closing a number of the open recommendations        ■   Chargebacks were issued for printing that customer
contained in audit reports issued during prior semiannual           agencies had received and accepted, including printing
reporting periods. The OA also issued three ﬁnal audit              jobs and funds from prior ﬁscal years.
reports during this reporting period. These reports made
a total of 16 recommendations, including efﬁciencies that       ■   IPAC lacks adequate controls to prevent inappropriate
represent approximately $3.3 million in potential funds put         chargebacks that, in turn, have caused waste and
to better use for GPO.                                              inefﬁciency due to duplicative processing of these
                                                                    charges.
B. Audit Accomplishments –
   Audit Reports                                                ■   The 90-day limitation on allowable adjustments to IPAC
                                                                    payments prescribed by the Department of the Treasury
1. Audit Report 05-01                                               is not being followed by customer agencies and no
   (Issued December 20, 2004)                                       sanctions have been applied, causing some chargebacks
                                                                    to be made that date back three years or more
Report on the Review of Funds Electronically Taken Back by
GPO’s Customer Agencies                                         ■   These chargebacks have an adverse ﬁnancial impact on
                                                                    GPO by reducing available cash.
This report provided results from a review of funds
electronically taken back (known as “chargebacks”) by           To ensure remediation of these problems, the OIG
GPO’s customer agencies using the Department of the             recommended that the GPO Chief Financial Ofﬁcer (CFO)
Treasury’s Intra-government Payment and Collection              instruct Finance & Administration (F&A) personnel to take
(“IPAC”) system. Most of GPO’s billings to federal customer     the following corrective actions.
agencies for printing and binding work are automated using
IPAC. IPAC contains multiple components which consist,          ■   The Accounts Receivable (A/R) Section should continue
in part, of the application that handles intra-governmental         to work with appropriate DOT ofﬁcials so that the
fund transfers between agencies. If a customer agency               accounts of both organizations are reconciled and
believes GPO has incorrectly taken its funds via IPAC, the          repayment of the remaining chargebacks, including the
customer can simply access IPAC and take back the funds.            $3.3 million noted in FY 2004, can be made promptly.

Office of the Inspector General/Semiannual Report to Congress                                                                7
■   The A/R Section should contact other customer                 2. Audit Report 05-02
    agencies as soon as possible after receiving notiﬁcation of       (Issued March 31, 2005)
    material (large-dollar) chargebacks, and likewise obtain
    repayments for those agencies’ chargebacks.                   Report on the Follow-up Audit of the Cash Management Services
                                                                  Concerning the Receipt and Deposit of Cash Transactions
■   The Comptroller should consider the short-term
    reassignment of F&A staff to help address and correct         The OIG completed a follow-up audit to determine
    the chargeback problem.                                       whether the GPO’s Cash Management Services (formerly
                                                                  known as the Cash Management Branch) implemented the
■   The Comptroller should develop a procedure to ensure          seven recommendations that were made concerning the
    that both IPAC-related billing codes (Billing Address         receipt and deposit of cash transactions in Audit Report No.
    Codes and Agency Location Codes) are updated within           98-11, “Report on the Internal Controls over GPO’s Pay
    A/R systems in a timely fashion.                              Parking Program Assets and Transactions by the Ofﬁce of
                                                                  the Comptroller,” dated September 8, 1998.
In addition, the OIG recommended that the CFO take the
following action.                                                 Results In Brief
                                                                  This follow-up audit was conducted from October 2004
■   Initiate contact with appropriate Treasury IPAC ofﬁcials      through February 2005. The OIG found that the Chief,
    to address control issues within that system, including       Cash Management Services, had taken corrective action
    the lack of compliance by GPO customer agencies with          to improve the policies and procedures in providing
    IPAC procedures and protocols, and the lack of sufﬁcient      reasonable assurance and safeguards against waste, loss, and
    internal controls over IPAC adjustments.                      unauthorized access concerning the receipt and deposit of
                                                                  cash transactions. The OIG concluded that the Disbursing
■   Develop an “escalation procedure” to ensure that aged         Ofﬁcer and the Chief, Accounts Receivable, effectively
    chargeback and other A/R balances owed to GPO                 provided services and support to both GPO and non-GPO
    by customer agencies receive adequate attention from          employees.
    senior GPO (and other appropriate) management. This              However, the corrective action taken by the Chief, Cash
    procedure would require formal notiﬁcation between            Management Services, did not achieve the implementation
    different management levels as these balances age. For        of six of the seven OIG recommendations made in Audit
    example, Comptroller-to-Comptroller contact on A/R            Report 98-11 concerning the receipt and deposit of cash
    balances beyond 60 days, CFO-to-CFO beyond 90 days,           transactions. As a result, the OIG identiﬁed two internal
    IG-to-IG beyond 120 days, and elevation to the Deputy         control weaknesses requiring GPO management’s attention.
    Public Printer should the situation warrant it.
                                                                  ■   Policies and procedures have not been written to improve
                                                                      the internal controls concerning the receipt and deposit
                                                                      of cash transactions as required by Standard 8 of GPO
                                                                      Instruction 825.18A, “ Internal Control Program.”

                                                                  ■   Annual internal control reviews have not been prepared
                                                                      since the October 31, 2002, vulnerability assessment on
                                                                      the Schedule of Collections to ensure internal controls
                                                                      were still in effect annually as required by paragraphs
                                                                      9.a. and 9.b. of GPO Instruction 825.18A.

8                                                                             Office of the Inspector General/Semiannual Report to Congress
                                                                From left to right: Supervisory Auditor Rodney
                                                                Dahl receives his PCIE/ECIE Award for Excellence
                                                                from ECIE Vice Chairman and Federal Reserve
                                                                Board Inspector General Barry Snyder


                                                                ■   Prepare annual internal control reviews on programs,
                                                                    functions, and activities concerning the receipt and
                                                                    deposit of cash transactions as required by GPO
                                                                    Instruction 825.18A.

                                                                3. Audit Report 05-03
                                                                    (Issued March 31, 2005)

                                                                Follow-up Audit Report on Improving the Controls over
                                                                GPO’s SmartPay Program at the Central Ofﬁce

                                                                The OIG completed a follow-up audit to determine
                                                                whether GPO management took the agreed-upon actions
                                                                based on the eight recommendations to ensure that
                                                                adequate management controls were maintained over the
To correct these weaknesses, the OIG recommended that           GPO SmartPay Program in the areas of GPO outlined
the Comptroller ensure that the Chief, Cash Management          by Audit Report No. 02-09, “Improving the Controls over
Services take the following corrective actions.                 GPO’s SmartPay Program at the Central Ofﬁce,” dated
                                                                September 9, 2002.
■   Develop written policies and procedures to ensure the
    timely deposits of cash as required by CH-2 of GPO          Results In Brief
    Publication 435.1 and Section 8030.20 of the Treasury       The OIG found that GPO management had taken
    Financial Manual.                                           corrective action to implement the eight previous audit
                                                                recommendations and improve the policies and procedures
■   Develop written policies and procedures to protect the      in providing reasonable assurance and safeguards against
    cash kept in the lock box.                                  waste, loss, and unauthorized access concerning GPO
                                                                management and internal controls over the GPO SmartPay
■   Develop written policies and procedures to prepare a        (purchase card) Program.
    report after each cash deposit is made to document who         However, in the course of completing all the objectives
    prepared and veriﬁed each deposit.                          of the follow-up audit, the OIG identiﬁed additional
                                                                conditions needing improvement.
■   Develop written policies and procedures to restrict the
    amount of cash the Disbursing Window can accept at          ■   Internal control reviews and supporting vulnerability
    any one time.                                                   assessments (and/or risk analysis) of two departments
                                                                    (Engineering Services and Workforce Development,
■   Develop written policies and procedures to separate             Education and Training) need to be developed in order
    the duties of preparing the deposit tickets and having          to allow for effective evaluation of the purchase card
    custody of the cash received at the Disbursing Window.          program in their respective areas;

■   Develop written policies and procedures to reconcile        ■   Written review procedures have not been established for
    the cash deposits with the pink receipts kept in the            governing the purchase card program and how it is to be
    Disbursing Window’s Receipt Books and reconcile any             administered in one department (Engineering Services).
    differences immediately.

Office of the Inspector General/Semiannual Report to Congress                                                                9
■    Employee return or surrender of assigned purchase          D. Advice and Assistance
     card(s) was not being carefully monitored; GPO             During this reporting period, the OA provided advice
     Form 2938, the form used for sign-off approval of          and assistance to GPO ofﬁcials and other Federal audit
     relinquishing GPO-owned items when an employee             organizations as follows:
     retires (or is otherwise separated) can be amended to
     account for surrender of purchase cards.                   2004 Financial Statement Audit
                                                                The OIG provided support for the audit of GPO’s 2004
To address these weaknesses, the OIG recommended the            ﬁnancial statements throughout this reporting period.
following corrective actions.                                   Under 44 U.S.C. 309, an annual ﬁnancial statement audit
                                                                has been required since Fiscal Year 1997. KPMG LLP
■    The Managing Director, Plant Operations and the            (KPMG) has been retained to conduct this audit under a
     Chief Human Capital Ofﬁcer should ensure that written      multi-year contract for which the OA is the Contracting
     internal control reviews and periodic vulnerability        Ofﬁcer’s Technical Representative. In addition, the OA
     assessments or risk analysis of the SmartPay purchase      provided administrative support and coordination with
     card program are performed within their respective         GPO management for the KPMG auditors.
     departments.
                                                                Liaison with GPO Managers
■    The Managing Director, Plant Operations should             The OA conducted liaison activities with GPO’s Chief
     ensure that written procedures and standard operating      Financial Ofﬁcer, Comptroller, Customer Services
     procedures are developed for Engineering Services and      Department, and Information Dissemination Department.
     serve as an effective internal control measure.            The OIG conducts these liaison activities in order to
                                                                improve GPO’s programs and operations, the OIG’s work
■    The Chief Human Capital Ofﬁcer should take steps to        product, and GPO/OIG communications.
     amend GPO Form 2938, “Employee Checkout Sheet,”
     to allow for documented return and veriﬁcation of          E. Status of Open Recommendations
     purchase cards when a GPO employee retires, transfers,     GPO management ofﬁcials made signiﬁcant progress
     or is otherwise separated from the working area to which   during this reporting period in implementing and closing
     they were assigned when the card was issued.               many of the recommendations contained in audit
                                                                reports issued during prior semiannual reporting periods.
C. Quality Assurance Activity                                   Speciﬁcally, GPO management worked in close cooperation
The OA maintains an internal quality assurance review           with the OIG to close 32 of the 35 recommendations
program which assists the organization with ensuring            that were reported as open at the end of the previous
compliance with generally accepted government auditing          reporting period. As for the three recommendations
standards. During this reporting period, the OA completed       which remain open, a synopsis of our audit ﬁndings
one Quality Assurance Review of a completed audit.              and recommendations, along with the status of GPO
                                                                management’s actions to implement them appear below.




10                                                                         Office of the Inspector General/Semiannual Report to Congress
                                                                From left to right: Supervisory Auditor David
                                                                Schaub receives his PCIE/ECIE Award for Excellence
                                                                from ECIE Vice Chairman and Federal Reserve
                                                                Board Inspector General Barry Snyder


                                                                Phase I should be completed by June 2005. On Phase II, the
                                                                development for additional enhancements is scheduled for
                                                                completion by the end of September 2005.

                                                                OIG Comments
                                                                This recommendation will remain open until the Managing
                                                                Director of Customer Services completes and implements
                                                                the system enhancements.

                                                                2. Audit Report 03-07
                                                                   (Issued September 30, 2003)

                                                                Report on Improving the Controls over the Administering of
                                                                GPO Transit Beneﬁt (Metrochek) Program

1. Audit Report 03-04                                           Finding
   (Issued September 30, 2003)                                  The OIG found that management controls were not
                                                                always effective over (a) the eligibility of GPO employees
Report on Improving Controls Over Printing Procurement          for participation in the Metrochek program and (b) the
Department’s Contract Modiﬁcations at Central Ofﬁce             distribution of monthly farecards. Furthermore, the
                                                                efﬁciency of the program as established in GPO Notice 450
Finding                                                         series and GPO Instruction 825.18A could be improved.
Printing Specialists in the Printing Procurement
Department (PPD) were entering contract modiﬁcation             Recommendation
data twice into PPD’s two automated databases – a stand-        The Comptroller should ensure that the Assistant
alone personal computer (PC) system and the Procurement         Comptroller of the General Accounting Division or
Information Control System (PICS) databases. Printing           the Chief of the Cash Management Branch require
Specialists were entering data twice because the two systems    all employees participating in the Metrochek program
were not interfaced, which is contrary to Standard 1 of         to submit an annual application to ensure that transit
GPO Instruction 825.18A, “Internal Control Program.”            information is current (0307-08).

Recommendation                                                  Management Comments
The Managing Director of Customer Services should               On February 17, 2005, the CFO stated that a draft of the
implement an automatic interface between the PC database        revised Transit Beneﬁt Program is being developed and
and PICS for entering future contract modiﬁcations data         should be ﬁnalized during the next reporting period.
(0304-02).
                                                                OIG Comments
Management Comments                                             The OIG has determined that this recommendation will
On March 15, 2005, the Managing Director of Customer            remain open until the draft instruction is ﬁnalized.
Services stated that the PPD’s Systems Support Group is
working on consolidating the two databases in two phases.




Office of the Inspector General/Semiannual Report to Congress                                                                11
3. Audit Report 04-03                                             Recommendation
     (Issued June 18, 2004)                                       The Chief Financial Ofﬁcer should identify and process all
                                                                  other modiﬁcations for jobs charged to credit cards from
Flash Report on Credit Card Charges to Customers for              ﬁeld ofﬁces and the Central Ofﬁce.
Modiﬁcations-Los Angeles RPPO
                                                                  Management Comments
Finding                                                           The Comptroller agreed with the ﬁnding and is working
The OIG identiﬁed three examples of modiﬁcations of jobs          to identify credit card modiﬁcations that have not been
charged to credit cards that had not been processed by the        charged.
Ofﬁce of the Comptroller. No attempt was made to identify
such jobs in the other ﬁeld ofﬁces or the Central Ofﬁce.          OIG Comments
                                                                  This recommendation will remain open until the OIG
                                                                  is notiﬁed by the Comptroller that the credit card
                                                                  modiﬁcations have been identiﬁed and processed.




 Statistical Table –
 Audit Reports with Questioned and Unsupported Costs
Description                                            Questioned Costs         Unsupported Costs                  Total Costs
Reports for which no management                           $132,687                      $17,609                     $150,296
decision has been made by the
commencement of the reporting period
Reports issued during the reporting period                    0                             0                            0
Subtotals                                                 $132,687                      $17,609                     $150,296
Reports for which a management
decision was made during the
reporting period
1. Dollar value of disallowed costs                          $0                         $10,949                     $ 10,949
2. Dollar value of allowed costs                          $132,687                      $ 6,660                     $139,347
Reports for which no management                              $0                            $0                           $0
decision has been made by the end
of the reporting period
Reports for which no management                              $0                            $0                           $0
decision has been made within
six months of issuance




12                                                                           Office of the Inspector General/Semiannual Report to Congress
 Statistical Table –
 Audit Reports with Recommendations That Funds Be Put to Better Use
Description                                                     Number of Reports   Funds Put to Better Use
Reports for which no management decision                               1                  $92,270
has been made by the commencement
of the reporting period
Reports issued during the reporting period                             1                 $3,300,000
Subtotals                                                              2                 $3,392,270
Reports for which a management decision
was made during the reporting period
• Dollar value of recommendations that were                            2                 $3,392,270
  agreed to by management
• Dollar value of recommendations that were                            0                     $0
  not agreed to by management
Reports for which no management decision has                           0                     $0
been made by the end of the reporting period
Report for which no management decision has                            0                     $0
been made within six months of issuance




 Statistical Table –
 List of Audit Reports Issued During Reporting Period
Other Audit Reports                                                                  Funds Put to Better Use
Report on the Review of Funds Electronically Taken Back by GPO’s                           $3,300,000
Customer Agencies (Report Number 05-01, issued 12/20/04)
Report on the Follow-up Audit of the Cash Management Services
Concerning the Receipt and Deposit of Cash Transactions
(Report Number 05-02, issued 03/31/05)
Follow-up Audit of the Report on Improving the Controls Over
GPO’s Smartpay Program at the Central Ofﬁce
(Report Number 05-03, issued 03/31/05)
Total                                                                                      $3,300,000




Office of the Inspector General/Semiannual Report to Congress                                                  13
Ofﬁce of Investigations



The Ofﬁce of Investigations (OI) conducts and coordinates       Ofﬁce of Workers’ Compensation Program
investigations relating to employee misconduct and              (OWCP)
monetary or material losses occurring in GPO programs and       The OI investigates GPO employees who have allegedly
operations. These investigations may include contractors,       submitted false claims and made false statements to facilitate
program participants, GPO management, and other                 receipt of workers’ compensation beneﬁts. The OI currently
employees. Special Agents in the OI are also designated as      has seven open investigations involving alleged OWCP fraud.
Special Police Ofﬁcers pursuant to 44 U.S.C. § 317.
   The OI’s investigations with federal or non-federal          Title 44, United States Code (U.S.C.) Violations
investigative agencies may result in criminal prosecution,      Federal agencies occasionally procure their printing needs
civil proceedings, or imposition of administrative sanctions.   from sources other than GPO. GPO believes this is in
Prosecutions may result in court-imposed prison terms,          contravention of Title 44 which prescribes that all federal
probation, ﬁnes, and/or restitution.                            agencies must use GPO for those services. The OIG
   The OI continues an aggressive effort to detect, prevent,    will continue to coordinate with GPO management and
and investigate the loss of government assets. In addition,     members of Congress concerning issues related to Title 44
the OI seeks to recover monetary funds and investigative        violations.
costs payable directly to the GPO as part of criminal and
civil adjudication, or through administratively negotiated      Procurement Fraud
settlements.                                                    The OI investigates allegations of statutory violations
                                                                involving GPO contractor service providers defrauding the
A. Summary of Investigative Activity                            government in connection with GPO’s procurement of
During this reporting period, the OI opened 30 investigative    printing goods and services. These violations include, but
cases in response to 85 new complaints or allegations, and      are not limited to, false claims, false statements, wire and
closed six matters. Thirty-six investigative matters remain     mail fraud, product substitution, and Small Disadvantaged
open in the OI. Two administrative subpoenas were issued        Business Program violations. The OI currently has 13 open
during the reporting period.                                    procurement fraud cases. A total of six investigative matters
                                                                were referred to U. S. Department of Justice for prosecution
B. Investigative Accomplishments                                during this period. Civil prosecution action is pending on
The OI remains active in liaison efforts with GPO ofﬁces        one of the referrals.
located in various regions throughout the country. As a
result, the OI has witnessed an increase in information or      Employee Misconduct
complaints received regarding allegations of fraudulent         The OI investigates allegations involving GPO employee
activities by GPO contractors. In addition, the OI              misconduct. These allegations include, but are not limited
has undertaken a proactive approach to identify GPO             to, misuse of government computers, theft, assaults, drug
contractors engaged in fraudulent activity. The result of       violations, gambling, kickbacks, and travel voucher fraud.
this new approach has resulted in a marked increase in          The OI has seven active misconduct investigations.
the dollar value of contracts under question, agency funds
saved, and monies recovered.                                    Miscellaneous
                                                                The OI investigates miscellaneous administrative allegations
C. Types of Cases                                               and other types of investigations that do not fall into
The OI’s investigative workload is categorized into four        one of the above four categories. The OI has nine active
major areas based on the type of investigative cases:           miscellaneous matters.




Office of the Inspector General/Semiannual Report to Congress                                                              15
D. Status of Action on Referrals                                 ■   A previously reported investigation into alleged over-
The OI’s investigative efforts result in both external and           billing by a GPO contractor resulted in the recovery of
internal referrals for action. A summary of outstanding              $11,779.
referrals by the OI follows:                                     ■   As a result of an OI investigation into the possible misuse
                                                                     of employee Social Security numbers, the OI identiﬁed
External                                                             errors in employee records on ﬁle in the agency that were
U.S. Attorney’s Ofﬁce (USAO) / State Attorney’s                      then corrected by agency personnel.
Ofﬁce (SAO):
One previously reported investigation into allegations of        ■   A previously reported investigation into allegations of
false claims, and false statements, was accepted for civil           contract fraud, false statements, and over-billing resulted
prosecution. The total amount of questioned over-billings is         in the recovery of $7,664 and a “Show Cause Letter”
$400,000.                                                            being sent to the contractor.
   One previously reported investigation into allegations        ■   A current investigation into alleged OWCP fraud was
of false claims, false statements, and product substitution
                                                                     referred to the Labor and Employee Relations Service
was settled after negotiations between the subject company
                                                                     for adverse personnel action against two agency
and the U.S. Department of Justice. As a result of the
                                                                     employees. The investigative results will also be provided
settlement, GPO recovered $258,438 from the subject
                                                                     to the Department of Labor for any action they deem
contractor.
                                                                     necessary to recover payments an employee was not
                                                                     entitled.
Internal
GPO Management:                                                  ■   Two separate OI investigations resulted in two employees
A total of 13 matters were referred to GPO management                being suspended from duty. In one matter, the employee
for action during this reporting period. Investigative ﬁndings       provided false time and attendance records to be paid
were also forwarded to the appropriate agency ofﬁcials for           overtime for which he was not entitled. The second matter
suspension, debarment, or other administrative actions               involved an employee who was suspended for providing
against contractors. As a result, the agency debarred six            false information to receive transit beneﬁts to which he
contractors or contractor employees and issued 12 other              was not entitled.
actions against contactors and/or their employees. In            ■   In addition, six debarments and ten other administrative
addition, approximately $120,000 in savings has been realized
                                                                     actions were issued to various GPO contractors by
in the reduction of OWCP Sick Injured Administrative Leave
                                                                     the GPO Chief Acquisitions Ofﬁcer as a result of OI
(SIA) taken by GPO employees.
                                                                     investigative activity.

E. Investigative Case Dispositions                               F. Work-In-Progress
The following list depicts the type of matters handled by the
                                                                 Several signiﬁcant OI matters are currently pending. The
OI during this reporting period.
                                                                 disposition and results of these investigations will be detailed in
■ As a result of OI investigative efforts, $258,438 was
                                                                 future reports. The following is a summary of pending matters.
  recovered from a GPO Region 6 contractor after settlement
  was reached with the U.S. Department of Justice.               ■   During a previous reporting period, the OI initiated a
■    A previously reported investigation into alleged over-          proactive approach to reducing workers’ compensation
     billing by a GPO contractor resulted in the recovery of         costs at GPO. The OI has collaborated with OWCP,
     $12,092 and the issuance of a “Show Cause Letter” to
     the contractor.


16                                                                            Office of the Inspector General/Semiannual Report to Congress
    resulting in a reduction of Continuation of Pay                   ■   The OI is investigating the alleged over-billing of
    (COP) costs and SIA leave. SIA costs were reduced by                  approximately $400,000 in contracts by a GPO
    approximately $20,000 per month during the reporting                  contractor. This matter was accepted by the U.S.
    period. The OI is also reviewing the long-term periodic               Department of Justice for civil prosecution. Other
    rolls of OWCP recipients. The OI is questioning $2                    allegations include the submission of false claims/false
    million (out of a total of $6.4 million) in long-term                 statements, and illegal sub-contracting.
    payments, and claims are being reviewed to verify the
                                                                      ■   A previously reported investigation into alleged fraud by
    legitimacy of OWCP beneﬁt payments.
                                                                          a GPO contractor is continuing. To date, the GPO has
                                                                          been able to recover $20,373 in over-billing and product
                                                                          shortages from the contractor.




 Statistical Table –
 Summary of Investigative Case Workload as of March 31, 2005
Workload Analysis                                                   Number of Cases
Beginning Case Workload as of October 1, 2004                              12
   New Allegations Received                                                85
   Matters Closed After Preliminary Investigation                         <55>
   Cases Opened                                                            30
   Cases Closed or Referred with No Further Action                        <6>
Ending Case Workload as of March 31, 2005                                  36



 Statistical Table – Ofﬁce of Investigations Productivity Summary
Arrests                                                         0     Amounts Recovered Through
Total Cases Presented to USAO’s / SAO’s                         6     Investigative Efforts                              $310,346
 Criminal                                                       5     Total Agency Cost Savings Through
                                                                      Investigative Efforts                              $120,000
   Criminal Declinations                                        5
                                                                      Total Administrative Referrals                        13
   Convictions                                                  0
                                                                      Contractor Debarments                                 6
   Guilty Pleas                                                 0
                                                                      Contractor Suspensions                                0
   Probation (days)                                             0
                                                                      Contractor Other Actions                              12
   Restitutions                                                 0
                                                                      Employee Suspensions                                  2
 Civil                                                          1
                                                                      Employee Terminations                                 0
   Civil Declinations                                           0
                                                                      Employee Warned/Other Actions                         0
                                                                      Other Law Enforcement Agency Referrals                0




Office of the Inspector General/Semiannual Report to Congress                                                                        17
Ofﬁce of Administration and Inspections



The Ofﬁce of Administration and Inspections (AI)                B. Inspection Accomplishments –
provides the OIG with an alternative to traditional audit       Inspection Reports
and investigative disciplines to assess GPO programs and
activities. AI conducts short-term reviews and evaluations      1. Inspection Report AI0501
that generally focus on issues, which are limited in scope         (Issued October 22, 2004)
and time sensitive. As with other ofﬁces within the OIG,
the AI also assists the Inspector General in responding
                                                                Passport Fortuna System Design Procurement
to Congressional and GPO management requests for
assistance.
                                                                Purpose
                                                                To notify GPO management of serious product integrity
                                                                concerns associated with the procurement of the Fortuna
A. Summary of Inspection Activity
                                                                Systems Passport design services.
During the current reporting period, AI issued two reports
concerning the production of blank U.S. Passports by GPO.
Additionally, AI issued two draft reports concerning the
                                                                Objectives
                                                                ■   Review the procurement of the Fortuna Systems
implementation of the Public Key Infrastructure (PKI) by
                                                                    Passport design services.
GPO. In addition, during the current reporting period, the
                                                                ■   Recommend improvements to resolve security concerns.
AI provided advice and assistance to GPO management as
follows.
                                                                Findings/Recommendations
                                                                ■   The OIG recommended that GPO management
■   AI continued to provide advice and assistance to the
                                                                    renegotiate a contract for services to require a more
    Chief Information Ofﬁcer (CIO) concerning the
                                                                    secure place for contract performance.
    reorganization of Information Technology (IT) services,
    IT security, and the OIG “trusted role” in the PKI
                                                                ■   The OIG recommended that the Director of Customer
    project at GPO.
                                                                    Services appoint a Contracting Ofﬁcer’s Technical
                                                                    Representative in the Creative Services staff to manage
■   AI continued to monitor work of the CIO to mitigate
                                                                    the work of the contractor and enforce the security
    risks in the GPO IT environment that were reported
                                                                    and product integrity protocols that are in place for the
    by the KPMG ﬁnancial statement audit and the OIG
                                                                    design process.
    inspection of GPO network vulnerabilities.

                                                                ■   The OIG recommended that GPO management
■   AI continued to provide advice and assistance to the
                                                                    designate a project manager to oversee the biometric
    Managing Director, Plant Operations concerning the
                                                                    passport program and monitor activities of the various
    security and product integrity of the biometric passport
                                                                    stakeholders.
    project.

                                                                Management Comments
                                                                GPO management responded to the OIG inspection report
                                                                and implemented the recommendations in a timely manner
                                                                to the satisfaction of the OIG.




Office of the Inspector General/Semiannual Report to Congress                                                               19
2. Inspection Report AI0502                                         Management Comments
     (Issued March 31, 2005)                                        GPO management has generally concurred with the
                                                                    report’s recommendations and has commenced the
Blank Passport Product Integrity and Security Review
                                                                    processes necessary for addressing the weaknesses identiﬁed.

Purpose
                                                                    C. Work-in-Progress
This evaluation completed a series of reviews concerning
the passport product and speciﬁcally addressed the GPO
                                                                    Information Technology
passport manufacturing process to identify opportunities for
                                                                    AI continues to provide advice and assistance to the CIO
improved passport product security.
                                                                    concerning the reorganization of IT services, IT security,
                                                                    and the process of migrating GPO legacy business systems
Objectives
                                                                    to contemporary software and hardware platforms. AI will
■    Evaluate the effectiveness of GPO’s approach to overall
                                                                    monitor the CIO’s work in mitigating risks in the GPO IT
     product security related to the production of blank
                                                                    environment.
     passports, including security of product components and
                                                                       AI will continue to provide advice and assistance for the
     internal controls.
                                                                    2004 Financial Statement Audit activity. AI assigns staff as
                                                                    liaison and facilitator for IT security testing and other IT
■    Contrast the GPO passport product security
                                                                    assurance work conducted by the external auditor KPMG
     environment to Federal Government best practices.
                                                                    to support their opinion on the GPO’s ﬁnancial statements.
■    Evaluate the need for an alternate/secondary passport
                                                                    GPO Enterprise Program
     production facility.
                                                                    The GPO Enterprise Program is a project to migrate the
                                                                    current GPO business, operational, and ﬁnancial systems,
■    Recommend improvements to the current internal
                                                                    including associated work-in-progress, to an integrated
     controls, security posture, practices, and policy related to
                                                                    system of Oracle enterprise software applications. The
     blank passport production that align with the needs of
                                                                    Enterprise Program includes implementation of remote
     an expanded Security and Intelligent Document (SID)
                                                                    systems, hosting, and disaster recovery administration and
     business unit.
                                                                    services. A contract was ﬁnalized with Oracle Corporation
                                                                    in May, 2004 that resulted in the purchase of approximately
Findings/Recommendations
                                                                    $3.7 million of software licenses, software support/
The inspection revealed a number of weaknesses in the
                                                                    maintenance, and other services. The projected total capital
blank passport production business processes that will not
                                                                    and expenses for the GPO Enterprise Program through
sustain the long term development of the SID business unit.
                                                                    2008 exceeds $17 million.
Speciﬁcally, the OIG found that there are missing critical
core competencies, deﬁcient processes, and infrastructure
                                                                    The OIG’s risk assessment of the Enterprise Program
issues that require GPO management attention. In
                                                                    includes:
addition, the OIG found signiﬁcant deﬁciencies regarding
                                                                    ■ development of a standard set of metrics to assist in
blank passport manufacturing, component product
                                                                       establishing an overall performance baseline;
security, and related internal controls that require GPO
management review and reengineering.
                                                                    ■   review of documentation to determine compliance with
                                                                        project management processes, a high level assessment
                                                                        of the audit controls, availability of audit data and
                                                                        quality of work products;

20                                                                             Office of the Inspector General/Semiannual Report to Congress
■   a stakeholder analysis to determine risk levels against a       To meet this objective, the OIG will focus on the overall
    set of best practices and critical success factors, and      effectiveness of GPO’s disaster and emergency procedures
                                                                 related to continuity of operations planning and employee
■   identiﬁcation of project-speciﬁc critical success factors.   security, safety and preparedness. In addition, the OIG
                                                                 will make recommendations to GPO that focus on GPO’s
Public Key Infrastructure                                        Strategic Vision and Federal Government best practices.
GPO has implemented a Public Key Infrastructure (PKI)
and intends to seek cross-certiﬁcation with the Federal          Evaluation of Management’s FY 2004
Bridge Certiﬁcation Authority (FBCA). Successful cross-          Submissions Pursuant to GPO Instruction
certiﬁcation will ensure that the GPO PKI operates in            825.18A Internal Control Program
accordance with the standards, guidelines, and practices         The OIG has initiated a review of GPO’s internal control
of the Federal PKI Policy Authority. In order for GPO to         program to identify ways to enhance the effectiveness of the
successfully complete cross-certiﬁcation, the GPO PKI            program, increase GPO management’s performance and
must undergo a compliance review. The OIG in its “trusted        improve operational results, and facilitate implementation
role” for the GPO PKI engaged an information security            of GPO’s transformational initiatives. The review will
engineering ﬁrm to perform the GPO PKI review. This              provide a description of the current internal control
compliance review will encompass several phases, the ﬁrst        program and will evaluate GPO management’s submissions
of which is a formal review of the Certiﬁcation Practices        with program standards and requirements as prescribed by
Statements (CPS).                                                the GPO internal control instruction. In addition, the OIG
   The ﬁrst phase of the review has provided GPO with            will evaluate the overall effectiveness of GPO’s internal
detailed ﬁndings and recommendations regarding the CPS           control program in achieving the objectives of government-
which, if not corrected, could have an adverse impact upon       wide standards and will recommend improvements to
the successful operation of the GPO PKI and preclude             GPO’s internal control program.
the Certiﬁcate Policy Working Group from recommending               By identifying Federal Government and private sector
cross certiﬁcation with the FBCA.                                best practices, the OIG will enhance GPO management’s
   The OIG is working in cooperation with the CIO in             ability to achieve the objectives of its strategic plan entitled
conducting this review and will continue to work together to     A Strategic Vision for the 21st Century. This review is intended to
resolve any concerns that arise during the course of review.     help GPO management ﬁll critical gaps in its transformation
Upon completion of all phases of the compliance review, a        plans, create performance measures to effectively monitor
ﬁnal report will be issued by the OIG.                           performance and results, establish an integrated internal
                                                                 control framework to provide GPO management with
Disaster & Emergency Preparedness Review                         helpful, accurate, and timely information on which to base
The OIG is reviewing the effectiveness of GPO’s processes        informed decisions and improve operations. The report will
and procedures for implementing an emergency action plan         help GPO managers at all levels to better understand their
in response to natural disasters, emergencies, incidents, and    internal control responsibilities and realize the increased
threats of varying degree and nature. The inspection will        beneﬁts and added value of an effective internal control
address sufﬁciency of planning, training, lines of authority,    program that is fully integrated into GPO-wide systems
and direction and responsibilities of GPO management.            and day-to-day operations. The OIG will also work to
The inspection will emphasize continuity of operations,          ensure that GPO does not overlook the opportunity to
planning for recovery and restoration, and administrative        integrate appropriate internal control training into GPO’s
and logistic operations.                                         Transformational Leadership Training Program.




Office of the Inspector General/Semiannual Report to Congress                                                                   21
D. Status of Previous Report                                  Findings/Recommendations
Recommendations                                               AI found that the delivery process does not meet the current
                                                              needs of GPO for secure delivery of blank passport books
1. Inspection Report AI0403                                   to Department of State passport locations. Additionally,
     (Issued September 22, 2004)                              AI found that the current delivery service package tracking
                                                              system cannot be relied upon for accurate information as
Passport Product Cost Recovery
                                                              to the status of a passport delivery. In addition, it was noted
                                                              that passport agencies in commercial buildings present
Purpose
                                                              additional security concerns for blank passport delivery.
This inspection was conducted to ensure that the cost
                                                              AI made recommendations to the Public Printer in a
recovery process for the production of blank passport
                                                              sensitive report for improving the security of blank passport
books accounts for all relevant factors, including the new
                                                              transportation.
biometric passport redesign.
                                                              Management Action
Findings/Recommendations
                                                              GPO ofﬁcials have taken action to effect a more secure
The OIG made recommendations to the Public Printer in a
                                                              process for delivery of blank passports. The OIG considers
sensitive report and recommended that the cost accounting
                                                              the recommendations closed.
process for blank passports should be conducted on an
annual basis and include relevant variables such as IT cost
                                                              3. Network Vulnerability Testing –
aspects of the passport inventory system and additional
                                                                 SeNet Recommendations
costs of security transport and product security services
when relevant procurements are ﬁnalized.
                                                              The CIO continues to make progress in mitigating
                                                              or eliminating 34 GPO key vulnerabilities identiﬁed
Management Action
                                                              by the OIG during previous reporting periods. These
GPO management concurred with the report’s ﬁndings.
                                                              were the result of testing the GPO internal network for
The Managing Director, Plant Operations worked closely
                                                              potential vulnerabilities and exploiting them further to
with the OIG to implement the recommendations. The
                                                              gain unauthorized and privileged access. The CIO has
OIG considers the recommendations closed.
                                                              implemented a majority of the recommendations and those
                                                              remaining are in the design, planning or development stage
2. Inspection Report AI0404
                                                              of implementation.
     (Issued September 28, 2004)

Blank Passport Transportation Security                        4. Financial Statement Audit –
                                                                 KPMG Recommendations
Purpose
To review the effectiveness and security of the process       KPMG issued twenty IT security related ﬁndings in the
for transporting blank U.S. passports from the GPO to         course of their 2004 Financial Statement Audit. The
the several U.S. Department of State (DOS) passport           ﬁndings addressed concerns in the overall GPO IT security
locations, and recommend improvements to ensure that          program, employee security awareness, segregation of
transportation of blank U.S. passports is secure.             duties, and other issues. The CIO has taken action on all of
                                                              the recommendations and has made substantial progress in
                                                              resolving all of the issues. Of those recommendations that
                                                              remain open, a resolution due date has been scheduled and
                                                              monthly progress reports are provided to the OIG.

22                                                                       Office of the Inspector General/Semiannual Report to Congress
       U.S. GOVERNMENT PRINTING OFFICE

       Ofﬁce of the Inspector General


                                                                   Gregory A. Brower
                                                                    Inspector General


                   Tina L. Jones
                Executive Assistant


               Michelle M. Ryman
             Administrative Assistant



                  Kevin J. Carson                                    J. Anthony Ogden                Ronald J. Koch
            Assistant Inspector General                         Assistant Inspector General    Assistant Inspector General
                  Ofﬁce of Audits                                Ofﬁce of Administration &       Ofﬁce of Investigations
                                                                   Inspections/Counsel


              David B. Schaub                                   Kevin P. Kaporch               Jeffery W. McAboy
              Supervisory Auditor                               Deputy AIG Ofﬁce of            Supervisory Special Agent
                                                                Administration & Inspections

                    Allyson S. Brown                                 Cynthia A. Long-Hill            David W. Kennedy
                    Auditor                                          Computer Specialist             Special Agent

                    Vacant                                           Peter D. La Tora                Sonja A. Scott
                    Auditor                                          Managment/Program               Special Agent
                                                                     Analyst

              Joseph J. Verch                                        Korey G. Morris                 Walter B. Martin IV
              Supervisory Auditor                                    Managment/Program               Special Agent
                                                                     Analyst

                    Patricia R. Mitchell                             Vacant                          Lloyd L. Rawls
                    Auditor                                          Managment/Program               Special Agent
                                                                     Analyst

                    Vacant                                      Andrew N. Killgore                   Hugh D. Coughlin
                    Auditor                                     Assistant Inspector                  Special Agent
                                                                General Ofﬁce of Policy
                                                                and Planning
              Rodney A. Dahl                                                                         Nathaniel Brown
              Supervisory Auditor                                                                    Special Agent



Office of the Inspector General/Semiannual Report to Congress                                                          23
                  OIG Hotline 1.800.743.7574




U.S. GOVERNMENT PRINTING O F F I C E

Office of the Inspector General


732 North Capitol Street, NW
Washington, D.C. 20401


202.512.0039
inspectorgeneral@gpo.gov
